LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 13, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

KEVIN R. GEORGE
AFFAIRS

V.

5614 Connecticut Avenue, NW #307
Washington, DC 20015

DENIS R. MCDONOUGH, SECRETARY

OF

VETERANS

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on August 13,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 13th day of August 2021.

